0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorariin DeMichael
Tyrone Moore and Derricli Darnell Moore v. State of
Tennessee was sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 12th day of February, 2021:
Benjamin A. Ball
Senior Assistant Attorney General
Criminal Appeals Division
Office of Tennessee Attorney General
P.O. Box 20207
Nashville, Tennessee 37202-0207
(615) 741-7859
Ben.Ball@ag.tn.gov

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
. Suite 102
' Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Patrick T. McNally
Counsel of Record
McNally Law
40 Burton Hills Blvd.
Suite 200
Nashville, TN 37215
(615) 480-8921
pmcnally@wmdlawgroup.com
Benjamin K .. Raybin
Raybin & Weissman, P.C.
424 Church Street
Fifth Third Center, Suite 2210
Nashville, Tennessee 37219
(615) 256-6666
braybin@nashvilletnlaw.com

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 12, 2021.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

/
2
-b
fo;t:
J
c)~
I

Date:

IJ'

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
'ebruary 14, 2023

